                      AUDIT OF 


THE SBAEXPRESS AND COMMUNITY EXPRESS LOAN PURCHASE 

              AND LIQUIDATION PROCESS 


             AUDIT REPORT NUMBER: 7-08 


                   December 29, 2006 

                    US SMALL BUSINESS ADMINISTRATION 

                       OFFICE OF INSPECTOR GENERAL 

                            Washington, DC 20416



                                                                    AUDIT REPORT
                                                            Issue Date: December 29, 2006
                                                            Number: 7-08


To:        Janet A. Tasker, Acting Associate Administrator,
           Office of Financial Assistance

           /s/ Original Signed
From:      Debra S. Ritt, Assistant Inspector General
           For Auditing

Subject: Audit of the SBAExpress and Community Express Loan Purchase and
         Liquidation Process

    Attached is a copy of the subject audit report. The report contains three findings and
twelve recommendations addressed to your office. Your response is synopsized in the
report and included in its entirety at Appendix D.
     The recommendations in this report are subject to review and implementation of
corrective action by your office in accordance with the existing Agency procedures for
audit follow-up. Please provide your management decision for the recommendations to
our office within 30 days of the date of this report using the attached SBA Forms 1824,
Recommendation and Action Sheet.
    Any questions or discussion of the finding and recommendation contained in the
report should be directed to Robert Hultberg, Director, Credit Programs Group, at (202)
205-[Exemption 2].


Attachments
                                         DRAFT


                              EXECUTIVE SUMMARY

     The objective of the audit was to determine if the SBAExpress and Community
Express Loan Purchase process adequately identified lender deficiencies that would have
affected purchase decisions and whether SBA adequately monitored the liquidation
process for both loan programs. The audit examined two statistical samples drawn from
all 2,729 SBAExpress and Community Express loan disbursements approved after
January 1, 2000 and purchased before February 1, 2005, which were valued at $130.6
million.

     We statistically sampled 45 SBAExpress and Community Express loan purchases,
with an original gross amount valued at $2 million to determine whether SBA adequately
identified lender deficiencies. We reviewed information contained in both SBA and
lender files for these loans. To assess whether SBA adequately monitored the technical
assistance requirement, we statistically sampled 43 loans with an original gross amount
totaling $935,000.

      Our audit disclosed that SBA purchased SBAExpress and Community Express
loans without obtaining information needed to assess whether lenders verified borrowers’
use of loan proceeds, determined eligibility and creditworthiness, or verified borrower
financial information. As a result, SBA did not detect lender deficiencies in 44 of the 45
loans sampled, which caused SBA to make improper purchase decisions. Based on the
high rate of deficiencies, we estimate that $128 million to $130.6 million in
disbursements on the 2,729 loans approved after January 1, 2000, and purchased before
February 1, 2005, were not properly reviewed by SBA.

     When projecting the results of our sample to the universe of 2,729 purchased loans,
Lender deficiencies went undetected because guidance provided to lenders did not
identify all of the necessary documents needed to make proper purchase decisions and
conflicted with instructions provided by SBA Headquarters concerning IRS tax
verifications.

     Our review also determined that lenders did not disclose material facts on two loans
that were purchased for $27,134, which would have impacted the purchase decisions.
Specifically, the lenders did not reveal that one borrower used loan proceeds for an
unauthorized purpose and that another borrower had previously been denied an SBA
loan. Consequently, SBA should be released from its liability for its guarantees on these
loans. These deficiencies were documented in the lender files and would not have been
detected through the current purchase review process.

     SBA also erroneously paid lenders approximately $304,000 in additional guarantees
on 43 Community Express loans that were ineligible for additional guaranty coverage
because the lenders provided no evidence that the borrowers were provided the required
technical assistance. This occurred, in part, because many lenders were directed by SBA
not to provide evidence of technical assistance, and SBA purchase reviewers were
instructed not to review loan files for evidence of technical assistance. SBA should either



                                             1

obtain proof of technical assistance or recover those portions of the guarantees that were
improperly paid.

    Further, SBA did not timely refer $25 million in purchased loans that were over 180
days delinquent to the Department of Treasury for collection, as required by the Debt
Collection Act. Approximately 79 percent of these loans were delinquent over 2 years as
of March 1, 2005. SBA officials believed the Agency was exempt from this requirement
and placed a low priority on loan liquidations due to the increasing volume of defaulted
express loans. Consequently, SBA missed opportunities to reduce losses on loans
purchased under the expedited loan processes.

     Given the high rate of deficiencies identified by the audit, we recommend that SBA
review all loans approved after January 1, 2000, and purchased before February 1, 2005,
to ensure lenders complied with program requirements and revise program guidance to
ensure that; (1) adequate documentation is provided and reviewed before purchase
decisions are made, and (2) defaulted loans are properly and timely referred to the
Department of Treasury for collection. We also recommended that SBA mitigate its
losses on defaulted loans by:

   •	 pursuing recovery of a $7,414 guarantee on a loan that was awarded to an
      ineligible type of business, and denying liability for $23,033 in guarantees on four
      loans where purchase reviewers missed lender deficiencies;

   •	 seeking recovery of $27,134 for two guarantee purchases for which the lenders
      failed to disclose material facts that would have affected the purchase decisions;

   •	 pursuing recovery of some or all of the $304,000 in additional guarantees
      provided lenders who did not demonstrate they provided the required technical
      assistance to borrowers; and

   •	 referring $25 million in purchased loans that are more than 180 days delinquent to
      the Department of Treasury for collection.

Management concurred with 6 of the 12 report recommendations and proposed corrective
actions that are responsive to 2 other recommendations. Management’s proposed actions
on all but 1 of these recommendations (recommendation 2) are fully responsive.

Management did not agree to take actions that will responsibly address the remaining
four recommendations. Specifically, management:

   •	 neither agreed nor disagreed to recover $7,414 from a lender who awarded an
      SBA loan to an ineligible company until it obtains additional information
      (recommendation 3).

   •	 did not agree it should ensure lenders are eligible for the additional guarantee
      coverage provided under the Community Express program by obtaining evidence


                                             2

       that technical assistance was offered to borrowers on the 43 loans we reviewed
       (recommendation 8).

   •	 disagreed that it should refer to Treasury $25 million in loans that were over 180
      days delinquent and not in a bona fide workout status, as required by the Debt
      Collection Act (recommendation 10).

   •	 did not agree to place adequate emphasis on liquidation follow-up and to ensure
      controls are in place to refer eligible non-tax debts to the Department of Treasury
      because it believed this recommendation had already been implemented, even
      though the audit identified instances where this had not occurred
      (recommendation 11).

Consequently, the OIG will pursue resolution of the remaining four recommendations
through the audit resolution process, and seek additional actions from management on
recommendation 2.




                                            3

                                   INTRODUCTION 


Background

    The SBAExpress Loan Program was established as a pilot program on February 27,
1995 in response to diminishing SBA personnel resources and increasing loan demand.
The program, which was made permanent on December 8, 2004, was intended to:

    •	 increase the Agency’s effectiveness in delivering financial assistance to the
       Nation’s small business community;

    •	 enhance the efficiency and reduce the cost of processing SBA loans for both the
       Agency and its lending partners;

    •	 reduce the required paperwork and procedures to further streamline the Agency’s
       approval process; and

    •	 encourage greater lender participation in SBA loan programs.

     Under the SBAExpress Loan Program, lenders are allowed to use their own loan
analyses and procedures in exchange for a lower SBA guarantee of 50 percent. Lenders
must, however, apply all SBA business loan requirements, including those in the Small
Business Act, the Code of Federal Regulations, and SBA’s standard operating
procedures, unless otherwise specified in the SBAExpress Program Guide. SBA
performs a cursory review of the loans during the approval process, but a more thorough
review of lender loan administration is required after a loan goes into default and the
lender submits a guarantee purchase request to SBA.

     In May 1999, SBA established another express loan program known as the
Community Express Program. This program was designed to increase lending to pre­
designated geographic areas comprising low and moderate income areas and to women,
minorities, and veterans. The Community Express Program generally conforms to the
SBAExpress Loan Program policies and procedures except that borrowers under the
Community Express Program must receive technical and management assistance from a
local non-profit provider and/or from participating lenders. The technical assistance must
be coordinated and when necessary, paid for by the Community Express lenders. To
encourage lenders to participate and to offset the additional costs for the technical
assistance, SBA offers Community Express lenders up to an 85-percent guarantee.

     Applications for SBAExpress and Community Express loans are processed at the
loan processing center in Sacramento, California, while loan purchases and liquidations
are performed at the Agency’s commercial loan servicing centers in Fresno, California
and Little Rock, Arkansas.




                                            4

     From fiscal years (FY) 1999 to 2005, SBA disbursed 197,618 SBAExpress and
Community Express loans totaling over $10 billion. By the end of FY 2005, the total
loan portfolio in both SBA programs exceeded $4.6 billion.

     Prior to June 2002, lenders making SBAExpress and Community Express loans were
required to complete liquidation actions before submitting a purchase request to SBA.
Due to lender concerns and complexities associated with these relatively small loans, in
June 2002, SBA issued Procedural Notice 5000-803, allowing the expedited purchase of
defaulted loans that met certain conditions. Under expedited purchase procedures, SBA
can immediately purchase loans originally approved for $50,000 or less without lender
substantiation of the disposition of business assets. For loans exceeding $50,000, the
purchase may be expedited if the liquidation process is expected to be protracted.
Lenders are also required to fully pursue loan liquidations to conclusion and provide SBA
with a liquidation status report every 180 days until the liquidation is completed. At the
conclusion of the liquidation process, the lender must prepare a summary report of all
collections and remittances to SBA.

     In July 2002, SBA issued Procedural Notice 5000-813, which allowed for the
expedited purchase of loans having a principal balance of $50,000 or less at the time of
the purchase, instead of $50,000 or less in the original approved amount. Although both
policy notices expired in 2003, SBA continues to apply them to the express loan
programs.

    From FY 1999 to FY 2003, the default rate of SBAExpress and Community Express
loans averaged between 7 percent and 20 percent.

Objectives, Scope and Methodology

     The audit was initiated based on concerns over the high default rate of express loans.
The objectives of the audit were to determine whether: (1) the SBAExpress and
Community Express Loan purchase processes adequately identified lender deficiencies
that would have affected purchase decisions; and (2) SBA adequately monitored the
liquidation process for both loan programs.

      To determine whether purchase decisions adequately identified lender deficiencies,
we selected two statistical samples. The first sample of 45 SBAExpress and Community
Express loans valued at $2 million was selected from a universe of 2,729 express loan
disbursements valued at $130.6 million that were approved after January 1, 2000, and
purchased before February 1, 2005. Twenty-five of the loans were purchased by the
Little Rock Servicing Center, 18 were purchased by the Fresno Servicing Center, and 2
were purchased by other SBA offices. Our sample size allowed us to extrapolate our
audit results at a 90-percent confidence level with a precision rate of ±1.3 percent. A
listing of the 45 loans reviewed is provided in Appendix A.

    To determine whether the purchase process focused on whether technical assistance
was provided by lenders in the Community Express program, we selected a second
sample of 43 Community Express loans. The 43 loans, valued at $935,000, were selected


                                             5

from a universe of 513 loans totaling $11.6 million that were approved after January 1,
2000, and purchased before February 1, 2005. Twenty-eight of the loans were purchased
by the Little Rock Servicing Center and 15 were purchased by the Fresno Center. A
listing of the 43 sampled loans is included in Appendix B.

     We examined documentation contained in SBA and lender loan files to assess the
adequacy of SBA’s purchase review. For material lender deficiencies, we calculated the
amount of potential recovery by considering the impact of the deficiency on the
performance of the loan. We interviewed officials at SBA’s Office of Lender Oversight,
Office of Financial Assistance (OFA), and the Fresno and Little Rock Commercial Loan
Servicing Centers. Officials at the National Community Reinvestment Coalition were
interviewed to obtain background information regarding the Community Express
Program.

     To address the second objective, we determined the length of time that 1,078
expedited purchased loans at both servicing centers had been in liquidation status as of
March 31, 2005. We reviewed the loan files to evaluate SBA liquidation monitoring
activities. We also interviewed servicing center officials regarding follow-up procedures
and systems in place. The audit was performed from March 2005 to July 2006 in
accordance with Government Auditing Standards as prescribed by the Comptroller
General of the United States.




                                            6

                                        RESULTS OF AUDIT


The SBAExpress and Community Express Loan Purchase Process Did Not Detect
Material Lender Deficiencies

     The SBAExpress loan purchase review process did not detect material lender
deficiencies in 44 of the 45 loans sampled, which caused SBA to make improper
purchase decisions. Our review of SBA’s purchase files disclosed that SBA purchased
loans without obtaining documentation to ensure that lenders:

        •	 verified appropriate use of loan proceeds;

        •	 obtained critical background information about the borrower (Form 1919);

        •	 obtained an Internal Revenue Services (IRS) verification of borrower financial
           information; or

        •	 determined borrower eligibility.

     Lender deficiencies were not detected during the purchase review process because
SBA did not obtain or require lenders to submit all necessary documentation needed to
make proper purchase decisions. Neither the lender purchase demand kit nor the SBA
purchase review checklist identified all of the information required for the purchase
review process. Also, OFA notified the purchase centers that IRS tax verifications were
not required for loans that were credit scored, which conflicts with direction in the
SBAExpress Program Guide.

     In addition to the deficiencies that should have been identified in the loan files, our
review of lender files disclosed that lenders did not report to SBA information that was
material to SBA’s decision on two loans that were purchased for $27,134. One lender
did not inform SBA that loan proceeds were used to refinance borrower debt owned by
the bank, and the other lender did not report that the borrower had been previously denied
for a SBAExpress loan. Although neither of these imprudent lender actions would have
been identified under existing procedures at the time of purchase, recovery of the
guarantees paid on both loans is warranted.

    Based on the high rate of deficiencies identified by the audit, we estimate with 90
percent confidence that $128 million to $130.6 million1 in disbursements were not
properly reviewed by SBA.




1
    The confidence interval is based on a precision rate of 1.3 percent. The numbers reported have been
    rounded from $127,965,339 and $130,616,719. We reduced the upper limit of the confidence interval
    by $16,590 to reflect the amount of disbursements we found were correctly verified by lenders.


                                                      7

SBA Did Not Ensure the Lender Verified Use of Loan Proceeds

     SBA did not determine whether lenders took appropriate measures to ensure that
loan proceeds were used as authorized. In accordance with the loan authorizations,
lenders must maintain evidence or a system to reasonably ensure that loan proceeds are
used for business purposes. SBA files for 44 of the 45 SBA loans we sampled did not
contain evidence that proceeds were used in accordance with the loan authorization. For
the remaining loan, the lender documented the use of proceeds for approximately $17,000
out of the $50,000 it disbursed. The Center directors admitted that SBA did not ensure
that loan proceeds were used as authorized. Instead, they told us that they generally
relied on lender self-certifications as proof that proceeds were used for business purposes.

     When projecting the results of our sample to the universe of 2,729 purchased loans,
we are 90 percent confident that $128 million to $130.6 million in disbursements were
not properly reviewed by SBA. This deficiency rate, coupled with SBA’s lack of
purchase review controls over the use of loan proceeds, put the agency at significant risk
of making improper payments.

SBA Did Not Detect Missing Borrower Information

     SBA requires that all lenders submit a Form 1919, SBA Borrower Information Form,
with their purchase requests. The form requires the borrower to declare whether he/she is
a U.S. citizen, has a criminal record, has delinquent Federal debt, or used a packager or
broker, all of which could adversely affect eligibility for a SBAExpress loan. If a lender
cannot supply the form at the time of purchase, SBA is required to notify the lender that it
cannot process the purchase request until the lender submits the form. The importance of
obtaining a complete SBA Form 1919 before honoring a purchase request is reflected in a
recent OIG Fraud Alert Notice issued in June 2006. The notice informed SBA personnel
about fraud schemes being perpetrated by loan packagers and brokers who recruited
borrowers to submit loan applications for businesses that did not exist or contained false
business histories.

     The SBA Form 1919 was either missing or incomplete for 2 of the 45 loans in our
review that were purchased for $14,232. Although the lender’s purchase request on one
of the loans acknowledged that the Form 1919 was missing, SBA did not follow-up with
the lender to either obtain the form or discuss the impact on the guarantee if the form
could not be located. For the other loan, the lender’s purchase request included the Form
1919, but it was missing information on the borrower’s citizenship. Consequently,
borrower eligibility for both loans could not be determined at the time the SBA honored
the guarantees.

SBA Did Not Check for IRS Verifications

     The SBAExpress Program Guide requires that lenders verify tax return information
if business revenue is included in credit scoring. Our review disclosed that IRS tax
verifications were missing for two loans purchased for $9,015 which defaulted within 24



                                             8

months of disbursement. Although revenue was a key component of the credit scoring in
both loans, loan servicing centers did not pursue verifications based on direction from
Headquarters that IRS tax verifications were not necessary for loans that were credit
scored, even if business revenue was included. This direction conflicts with the
SBAExpress Program Guide, which requires verification of business income.

     Had SBA verified business income for the two borrowers, it would have identified a
weakness in the borrowers’ creditworthiness. Because the lenders failed to comply with
the tax verification requirement in the SBAExpress Program Guide, SBA should not have
purchased the guarantees.

SBA Did Not Identify an Ineligible Borrower

     SBA purchased a $7,414 loan that was made to a borrower whose business was a
check cashing service. According to 13 CFR 120.110(b), businesses primarily engaged
in lending, such as banks and finance companies, are ineligible for SBA business loans.
Based on the North American Industry Classification System code assigned to the
company, this business was a credit intermediary. As such, the company was not eligible
for SBA financing. Thus, SBA should not have purchased the loan and has adequate
basis for recovering $7,414 from the lender.

Deficiencies Were Not Detected Because of Missing Documentation

     Lender deficiencies were not detected primarily because SBA did not request that
lenders submit all of the necessary documentation needed to make proper purchase
decisions. Neither the lender Purchase Demand Kit nor the SBA Pre-Purchase Review
checklist identified all of the information required for the purchase review process. The
Purchase Demand Kit was developed by SBA to assist lenders in determining which
documents must be submitted to SBA with the purchase request. The kit requires lenders
to submit a wrap-up report, transcript of account, copy of the note, wire instruction, detail
of expenses, SBA Forms 1919 and 1920, and all collateral documents. However, the kit
does not require refinancing justifications, proof that proceeds were used as authorized, a
credit analysis, or evidence that borrower citizenship was verified. Instead, SBA relies
on lender self-certifications that loans are originated, closed, serviced and liquidated, in
accordance with SBA regulations.

     The SBA Pre-Purchase Review checklist is used at each commercial loan servicing
center to guide loan servicing assistants through the purchase process and to confirm that
completed forms are received. It does not, however, provide for a determination on the
soundness of the loan origination. For example, the checklist does not require analysts to
determine whether collateral acquired meets the lender’s internal collateral policies and
procedures for its own commercial loans. In addition, while the checklist includes a
broad question regarding whether the lender closed and serviced the loan in accordance
with the terms of the loan authorization, it does not require loan servicing assistants to
determine whether:




                                              9

      •	 critical borrower information was obtained on the Form 1919, including
         adverse information that would have prevented the applicant from receiving an
         SBA guaranteed loan;

      •	 debt refinancing was properly justified;

      •	 a credit analysis was obtained and analyzed;

      •	 the applicant was eligible for an SBA-guaranteed loans;

      •	 all fees included with the purchase were allowable;

      •	 loan proceeds were used in accordance with the loan authorization;

      •	 the borrower had alternative sources of capital, such as liquid assets; or

      •	 the borrower was previously denied SBA assistance.

     As a result of the high rate of purchase review deficiencies identified by the audit,
there is no assurance that any of the 2,729 SBAExpress and Community Express loans
approved after January 2000 and purchased before February 2005 were properly
reviewed to assure lender compliance with SBA rules and regulations and prevent
improper payments before the loan guarantees were honored.

Lenders Did Not Disclose Material Information

     A review of lender files for two loans that were purchased for $27,134 and made by
different lenders disclosed that one lender did not inform SBA that loan proceeds were
used to refinance borrower debt owned by the bank, and that the other lender did not
report that the borrower had been previously denied for a SBAExpress loan. Specifically,
one lender did not disclose to SBA that $40,000 of a $50,000 loan was used to refinance
borrower debt with the lender. Lenders are required under 13 CFR 120.140(j)(3) to
notify SBA when loan proceeds will be used to refinance debt due the same lender or to
an associate of the lender. To qualify for refinancing, the lender must ensure that the
existing loan no longer meets the needs of the applicant, the new loan will result in a 20­
percent increase in cash flow and that the existing debt has been current for 36 months.
The loan was purchased by SBA for $20,503.

     The lender’s purchase request did not include any information showing that loan
proceeds would be used to refinance a debt owned by the lender or evidence that the
refinanced debt met the required conditions. Moreover, the loan authorization restricted
the use of loan proceeds for working capital only. Thus, not only did the lender fail to
disclose a material fact to SBA, the lender violated the terms of the loan agreement by
using loan proceeds to refinance borrower debt.




                                             10

     We also found that a second loan purchased for $6,631 was made to an ineligible
borrower. The SBAExpress Program Guide provides that a loan is not eligible for the
SBAExpress Program if the lender is aware that the application was previously denied
under any SBA loan program. The lender noted in an internal memo that the borrower
was previously declined by another lender for a $25,000 SBAExpress loan and
recommended approving the loan for a lower amount. The lender, however, did not
disclose this material fact in the appropriate section of the eligibility form submitted to
SBA. Consequently, the lender made a loan to an applicant that was not eligible for the
loan under program guidelines.

     According to 13 CFR 120.524 (a)(4), SBA is released from liability on a loan
guarantee if the lender fails to disclose a material fact to SBA regarding a guaranteed
loan in a timely manner. Under current Express Loan purchase procedures, it is unlikely
that SBA would identify these deficiencies because the purchase process did not require a
review of the lender’s loan file. Due to the materiality of the information withheld from
SBA, corrective actions against the lenders are warranted. Although neither of these
imprudent lender actions would have been identified under existing procedures at the
time of purchase, recovery of the guarantees paid on both loans is warranted.

Recommendations

We recommend that the Associate Administrator for Financial Assistance:

1.	 Determine if loan proceeds on the 45 loans sampled during our audit were used in
    accordance with the terms of the loan authorizations, and take appropriate corrective
    actions against lenders that are not able to substantiate an appropriate use of proceeds.

2.	 Determine if lender actions warrant a denial of liability on $14,232 in guarantees
    associated with the two loans that were either missing a Form 1919 or where the form
    was incomplete; and $9,015 on guarantees on another two loans that were missing
    IRS tax verifications.

3. 	 Recover $7,414 from the lender that awarded an SBA loan to an ineligible company.

4. 	 Revise the purchase demand kit and review checklists to require that lenders provide
     SBA staff with use of proceeds documentation, complete SBA Form 1919s, IRS tax
     verifications, and any other documentation needed to determine lender compliance
     with applicable requirements.

5.	 Review the 2,729 loans for compliance with SBA rules and regulations and improper
    payments.

6.	 Recover $27,134 for the two purchased SBA Express loans reviewed for which the
    lender failed to disclose material facts.




                                             11

Management Comments and OIG Evaluation

Recommendation 1

     OFA agreed with the recommendation to determine if loan proceeds were used in
accordance with the terms of the loan authorization. The Office has also agreed to re­
examine the 45 loan files for lender and/or borrower certifications within 90 days after
the loans files are returned by the OIG. The examination will also review the loan
authorization requirements for use of proceeds verification.

    OFA’s agreement to re-examine loan files to determine if use of proceeds were
properly verified by lenders is responsive to the recommendation.

Recommendation 2

    OFA has agreed to review the files for two loans that had missing or incomplete
1919 forms to determine if lender actions warrant a denial of liability. These reviews will
be performed within 90 days of the return of the loan files.

     OFA’s comments are not fully responsive to the recommendation. While
management agreed to review two loan files, it did not indicate what action it planned to
take on two other loans, totaling $9,015 in guarantees, which were missing IRS tax
verifications. Consequently we will pursue action on these loans through the audit
resolution process.

Recommendation 3

    OFA took a neutral position until further information is obtained regarding the
nature of the business. If the business is found to have been ineligible, they will take
appropriate action to recover the amount indicated.

    Because management neither concurred or non-concurred with the proposed
recommendation, we will pursue a more definitive response through the audit resolution
process.

Recommendation 4

    OFA agreed with the recommendation and will review the purchase demand kit to
ensure documents required to make a prudent purchase decision are included within 90
days from issuance of this report. OFA’s comments are responsive to the
recommendation.




                                             12

Recommendation 5

     OFA did not agree with the recommendation to review the entire universe of 2,729
loans. However, an alternative solution was proposed. A review will be performed on
the sample of 45 loans reviewed during the audit. If significant issues are identified
during the review, then a determination will be made with regard to identification of
additional purchases for disbursements exceeding $50,000.

     OFA’s comments offer an acceptable alternative, which satisfies the intent of the
recommendation. Although management doesn’t believe that traditional verification is
needed for working capital loans, prudent lending involves reasonable measures to verify
use of loan proceeds. As mentioned in the report, The OIG Fraud Alert Notice issued in
June 2006, highlighted loan applications for businesses that did not exist or contained
false business histories. Holding borrowers accountable for use of loan proceeds may
serve to deter such practices.

Recommendation 6

     OFA preliminarily agreed with the recommendation, subject to further review. OFA
will review loan documentation prior to making a decision to seek recovery. OFA’s
comments were responsive to the recommendation.




                                           13

Lenders Received Higher Guarantees without Evidence of Technical Assistance

     SBA loan servicing assistants did not ensure that Community Express lenders
provided the required technical assistance to borrowers before honoring the guarantees at
the full amount. Because Community Express loans are considered high-risk,2 the
technical assistance component is critical to the success of the business and prevention of
losses to SBA.

     SBA Policy Notice 5000-605 requires that Community Express lenders provide
borrowers with technical and management assistance. The technical assistance must be
coordinated, arranged and, when necessary, paid for by Community Express lenders. To
offset these costs and encourage lenders to participate, SBA offers Community Express
lenders a guarantee of up to 85 percent rather than the 50 percent guarantee available to
SBAExpress lenders.

     We reviewed SBA and lender files for 43 Community Express loans purchased for
$760,000 to test whether the purchase process assessed the technical assistance
component of the program. We also reviewed each borrower’s action plan for technical
assistance needs. Although the action plans often listed the critical needs of the
borrowers, we found no evidence that the technical assistance requirement was met on
any of the 43 loans we reviewed. This occurred because SBA had directed several
Community Express lenders to not provide supporting evidence for technical assistance
and instructed its loan servicing assistants to not review loan files for evidence of
technical assistance. At the direction of OFA, on September 11, 2003, the Fresno
Commercial Loan Servicing Center issued a letter to its lenders, stating that:

       “Community Express lenders are no longer required, as part of the purchase
       process, to submit any documentation whatsoever in relation to technical
       assistance program requirement. CLSC-Fresno staff is now permitted to
       assume, without any further investigation or inquiry, that SBA Community
       Express lenders are providing Technical Assistance consistent with the
       Community Express Program Guidelines.”

       “…In those cases where Lenders elect to affirmatively disclose within their
       purchase demand that Technical Assistance was not provided, there may be
       instances where the Center staff will engage Lenders in so-called “repair”
       negotiations. These negotiations may result in – among other types of
       adjustments – a reduction in the guarantee from 85 percent to a lower rate.”

Without the supporting documentation for technical assistance, SBA cannot determine if
lenders are eligible for the additional guarantee coverage provided Community Express
loans. Consequently, SBA erroneously paid lenders $304,000 when it honored the full
guarantee amounts on the 43 Community Express loans sampled, without evidence that
lenders provided the required technical assistance. Projecting these results to the


2
    In FY 2003, Community Express loans had a 16-percent higher default rate than SBAExpress loans.


                                                   14

universe of Community Express loans approved after January 1, 2000 and purchased
before February 1, 2005, we estimate that SBA made $2 million in erroneous payments.

Recommendations

   We recommend that the Associate Administrator for Financial Assistance:

7.	 Require the Fresno and Little Rock Commercial Loan Servicing Centers ensure
    lenders have provided technical assistance before purchasing guarantees above 50
    percent.

8.	 Obtain evidence from lenders that technical assistance was provided to borrowers on
    the 43 Community Express loans reviewed. If no evidence is provided, seek recovery
    of those portions of SBA guarantees that exceeded the 50-percent level.

9.	 Direct the Fresno Commercial Loan Service Center to rescind its September 11, 2003,
    guidance and inform lenders that proof of technical assistance is a program
    requirement.

Management Comments and OIG Evaluation

Recommendation 7

     OFA disagreed with the finding and partially agreed with the recommendation.
Management disagrees that technical assistance was not provided simply because
adequate documentation was not submitted during the purchase review process, but
agrees that the Agency should publish enhanced guidance for lenders. Management
stated that, as noted in the report, each borrower was evaluated by a technical assistance
provider and an action plan was developed for the borrower, both of which constitute the
provision of Technical Assistance. Further, they want lenders to make a good faith
effort to ensure the borrower follows up and receives the technical assistance. The
guidance would clearly specify what SBA expects of lenders in the providing technical
assistance. The guidance would also set forth SBA’s minimum required documentation
required with submission of a purchase request.

       We disagree with management’s position for two reasons: (1) the report does not
state that technical assistance was not provided, but instead says the lack of
documentation provides no assurance that technical assistance was given to borrowers;
and (2) the technical assistance plans are simply plans, which may or may not have been
executed. Further, when borrowers fail to take advantage of available technical
assistance, lenders are required to document their efforts to provide technical assistance;
including submitting to SBA a copy of the correspondence they sent the borrower
strongly urging him/her to take advantage of the technical assistance. We found no
evidence of such documentation in the files.




                                             15

     Because SBA requires that lenders must show they attempted to provide technical
assistance to obtain the additional SBA guarantee, a plan does not provide proper
evidence that the borrower actually received technical assistance. Although management
disagreed with the finding, it agreed to publish enhanced guidance for lenders, which is
responsive to the recommendation.

Recommendation 8

     OFA did not agree with the recommendation to obtain evidence that technical
assistance was provided. Management referred to our report as evidence that
management assessment and technical assistance action plans were developed for the
loans in question. Management believes this forms the basis for concluding that
substantive technical assistance was provided. Thus, OFA has no basis to recover any
guarantee purchase amounts for these loans, under existing program guidance.

     We do not consider OFA’s comments to be responsive. As noted above in our
evaluation of management’s comments for recommendation number 7, technical
assistance plans are not adequate evidence that technical assistance was offered to
borrowers. Lenders are required to document their efforts to provide technical assistance,
including submitting to SBA a copy of the correspondence they sent the borrower
strongly urging him/her to take advantage of the technical assistance. Despite developing
management assessments and technical assistance action plans, lenders did not document
good faith efforts, as required. Based on management’s non-concurrence, we will pursue
corrective action on this recommendation through the audit resolution process.

Recommendation 9

     OFA agreed with our recommendation to rescind its September 11, 2003 guidance.
In addition, community express lenders will be required to certify that they attempted to
provide technical assistance in connection with each loan submitted for purchase. OFA’s
comments were responsive to the recommendation.




                                            16

SBA Did Not Monitor $25 Million in Potential Collections on SBAExpress and
Community Express Loans

     Generally, lenders must complete loan liquidation actions on SBAExpress and
Community Express loans prior to seeking a guarantee purchase from SBA. An
exception to this rule allows SBA to expedite the purchase process in advance of
liquidation activities under certain conditions, such as when loans are in bankruptcy or
when they have balances under $50,000. When the purchase is expedited, the Agency is
required to monitor lender liquidation activities to ensure they are performed timely.

     Our audit showed that SBA did not monitor or follow-up on the liquidation of 1,078
loans purchased for $25 million through expedited purchase procedures. Management at
the service centers provided the following statistics on purchased loans in liquidation as
of March 31, 2005. We did; however, discover errors in this data. As shown in Table 1
below, 850 purchased loans, or 79 percent, were in liquidation status since 2004 or
earlier.

                                            Table 1
                         Expedited Purchased Loans in Liquidation
                                   (as of March 31, 2005)
     Calendar Year       Number         Purchase      Percentage of      Cumulative
      Purchased          of Loans       Amount         Total Loans     Percentage Total
          2002                     94    $1,877,935                9                     9
          2003                    313    $7,378,501               29                    38
          2004                    443   $10,479,315               41                    79
          2005                    228    $5,301,957               21                   100
          Total                 1,078   $25,037,708              100

      SBA requires3 lenders to provide SBA with a status report every 180 days for loans
placed in liquidation. Loans in liquidation for 180 days or more must be reviewed by
SBA every 90 days. SBA must review a sample of 25 percent of the loans that are in
liquidation for less than 180 days. These follow-up activities are required to ensure
lenders are completing liquidation procedures in a timely manner and that SBA receives
its proportionate share of any subsequent collection.

     Under the Debt Collection Improvement Act of 1996, Federal agencies are required
to refer eligible non-tax debts over 180 days old to Treasury for collection actions. We
found that a January 3, 2000, letter from the Department of Treasury granted SBA an
exemption for the 180-day transfer rule in cases where SBA is actively negotiating a
repayment schedule with the borrower (referred to as in “workout” status). However,
once it is determined that a workout is not feasible and, in the case of collateralized loans,
SBA completes its liquidation actions, any remaining delinquent debts are subject to the
mandatory transfer provision of the Debt Collection Act.

3
    SBAExpress Program Guide.


                                               17

     We reviewed a judgmental sample of the above loans and found that very few files
contained evidence of follow-up. We requested 100 files (50 files from each center) and
found evidence of follow-up for only four loans. Twenty files had not been in liquidation
status long enough to require monitoring actions. Thus the agency performed adequate
follow-up on only 4 out of 80 loans.

     SBA officials at the loan servicing centers indicated that liquidation follow-up
procedures were considered a low priority due to the expanding loan portfolio of
defaulted express loans and the lack of staff. Most of the centers’ resources were devoted
to purchasing and various other duties.

     Consequently, by allowing expedited purchased loans to go unmonitored, SBA
missed opportunities to reduce $25 million in losses on loans purchased under the
expedited process by referring them to the Department of Treasury for additional
collections activities as required under the Debt Collection Act.

Recommendations

We recommend that the Associate Administrator for Financial Assistance:

10. Review the $25 million of loans in liquidation and refer to the U.S. Department of
    Treasury those loans that are more than 180 days delinquent and are not in bona fide
    workout arrangements

11. Ensure that adequate emphasis is placed on liquidation follow-up and that controls
    are in place to refer eligible non-tax debts to the Department of Treasury within 180
    days of delinquency as required by the Debt Collection Act.

12. 	Require the Fresno and Little Rock Commercial Loan Servicing Centers to obtain
     updated status reports from lenders on loans currently in liquidation status and
     charge loans off as appropriate.

Management Comments and OIG Evaluation

Recommendation 10

    OFA did not agree with the recommendation to refer $25.1 million in loans to the
U.S. Department of Treasury. Management believes the recommendation would be
appropriate for loans that are not in litigation or foreclosure. SBA will refer loans to
Treasury following completion of recovery efforts.

      We modified this recommendation to take into consideration the comments from
OFA. While OFA’s response indicates that it agrees to make timely referrals, the key to
doing so is timely monitoring of purchased loans, which are being liquidated by lenders.
Given the age of some of these delinquencies, it appears likely that some loans are not in
litigation or foreclosure and should be charged off.



                                            18

     Under any circumstance, the Service Center should review the status of these
liquidations, and refer to Treasury those that are not in a workout arrangement and are
180 days or more overdue. Nevertheless, we plan to pursue action on this
recommendation through the audit resolution process.

Recommendation 11

    OFA partially agreed with the recommendation and has indicated that centers are
exploring ways to redirect or supplement existing staff resources for this function.
Management believes this recommendation has already been implemented since an
automated referral to Treasury is initiated shortly after charge-off.

     While automated referral is already in place, referrals are only made when loans
have been charged off. Charge offs occur at the end of the liquidation process. However,
our audit showed that SBA did not monitor or follow-up on the liquidation of 1,078 loans
to ensure that loans were charged off when workouts were no longer feasible.
Consequently, many loans were in liquidation for several years. Also, while management
stated that adequate emphasis is now placed on charging off loans within a very short
time period after purchase; it provided no evidence to support its assertion.
Consequently, we do not consider management’s comments to be responsive to the
recommendation and will pursue corrective action through the audit resolution process.

Recommendation 12

    OFA agreed with the recommendation and they are exploring ways to redirect staff
resources to review purchased loans in liquidation status. OFA’s proposed actions are
responsive to the recommendation.




                                            19

                                                                              Appendix A


                                  Lender Deficiencies in
                    SBAExpress and Community Express Loans Reviewed

                            GROSS         SBA          SBA           SBA
#      LOAN    APPROVAL                                                         DEFICIENCY
                             LOAN       GUARANTY     PURCHASE      PURCHASE
      NUMBER     DATE                                                                CODES
                            AMOUNT      AMOUNT        DATE         AMOUNT
1    EX. 2      1/28/2000     $60,000      $30,000     11/1/2004       $9,252   UP, 1919

2    EX. 2      2/11/2000    $100,000      $50,000      8/4/2004      $49,899   UP

3    EX. 2      2/18/2000     $35,000      $17,500     3/22/2001      $18,089   UP

4    EX. 2      2/24/2000     $50,000      $25,000     1/27/2004      $25,000   UP, MRJ,

5    EX. 2       5/2/2000     $25,000      $12,500     3/12/2002      $10,865   UP

6    EX. 2      5/26/2000     $10,000       $5,000     9/26/2003       $3,082   UP

7    EX. 2       6/2/2000     $50,000      $25,000     6/18/2003      $24,942   UP

8    EX. 2      6/20/2000    $150,000      $75,000     9/10/2003      $35,710   UP

9    EX. 2      7/24/2000    $100,000      $50,000     8/10/2004      $48,970   UP

10   EX. 2      8/25/2000    $100,000      $50,000     3/12/2003      $49,970   UP

11   EX. 2      8/30/2000     $15,000       $7,500     2/27/2002       $6,631   UP, ND, LPD

12   EX. 2       9/8/2000     $45,000      $22,500    10/24/2003      $17,459   UP

13   EX. 2      9/14/2000    $100,000      $50,000      2/6/2002      $50,000   UP

14   EX. 2      9/22/2000     $75,000      $37,500    11/19/2003      $36,765   UP

15   EX. 2     10/13/2000     $20,000      $10,000     5/30/2003      $10,000   UP

16   EX. 2     10/23/2000     $50,000      $25,000    11/18/2003       $5,826   UP, MRJ

17   EX. 2     11/30/2000     $43,800      $21,900     4/27/2004      $19,422   UP

18   EX. 2     12/13/2000      $7,500       $3,750     2/20/2003       $3,609   UP

19   EX. 2      1/10/2001     $52,000      $26,000      8/3/2004      $18,548   UP

20   EX. 2      1/19/2001    $125,000      $62,500    11/25/2003      $56,106   UP

21   EX. 2      1/29/2001     $25,000      $12,500    10/29/2003       $9,610   UP

22   EX. 2      3/30/2001     $10,000       $5,000    11/13/2002       $4,980   UP, 1919

23   EX. 2       5/9/2001     $50,000      $25,000      7/9/2004      $24,969   UP

24   EX. 2       7/2/2001     $50,000      $25,000    11/18/2003      $19,635   UP

25   EX. 2      8/22/2001     $25,000      $12,500     7/29/2004       $7,304   UP

26   EX. 2      8/29/2001     $50,000      $25,000     8/26/2003      $20,503   UP, RD, MRJ

27   EX. 2      9/18/2001     $50,000      $25,000     8/18/2003      $22,784   UP
                                                                                         Appendix A


                                    GROSS            SBA          SBA           SBA
#      LOAN       APPROVAL                                                                 DEFICIENCY
                                    LOAN         GUARANTY       PURCHASE      PURCHASE
      NUMBER         DATE                                                                       CODES
                                  AMOUNT          AMOUNT         DATE         AMOUNT
28   EX. 2           11/1/2001        $85,000         $42,500    11/12/2003      $38,315   UP

29   EX. 2          11/19/2001        $25,000         $12,500     6/19/2003      $12,500   UP

30   EX. 2           1/25/2002        $50,000         $25,000      6/8/2004      $24,602   UP, MRJ, RD

31   EX. 2           4/30/2002       $100,000         $50,000     3/22/2004      $49,235   UP

32   EX. 2           7/22/2002        $50,000         $25,000    12/21/2004      $25,000   UP, ND

33   EX. 2           7/26/2002        $10,000          $8,500     3/23/2004       $7,414   UP, ND, IBT

34   EX. 2           8/22/2002        $50,000         $25,000     11/9/2004      $24,875   UP

35   EX. 2           10/4/2002         $5,000          $4,250    12/16/2003       $3,908   UP

36   EX. 2          10/10/2002         $6,000          $3,000     8/26/2003       $2,884   UP

37   EX. 2          10/17/2002        $10,000          $8,500      7/1/2003       $8,319   UP, TA

38   EX. 2           12/2/2002        $50,000         $25,000    12/15/2003      $21,882   UP

39   EX. 2           12/5/2002        $25,000         $12,500    10/27/2004      $11,389   UP

40   EX. 2           3/26/2003         $5,000          $4,250     2/12/2004       $4,078   UP, TV

41   EX. 2           5/15/2003        $10,000          $5,000    12/17/2004       $4,843   UP

42   EX. 2            6/6/2003        $25,000         $12,500     11/4/2004      $12,500   UP

43   EX. 2           8/11/2003         $6,000          $5,100     8/25/2004       $4,937   UP, TA, TV

44   EX. 2           8/22/2003         $5,000          $4,250     4/15/2004       $4,119   UP, TA

45   EX. 2          10/29/2003        $10,000          $8,500      9/3/2004       $8,281   UP


                              LEGEND 


        Area of Deficiency                                          Code
        Missing Verification for Use of Proceeds                     UP
        Missing Refinancing Justifications                           MRJ
        Technical Assistance not Provided                            TA
        Nondisclosure of Previous SBA Assistance Request             ND
        Missing or Incomplete SBA Form 1919                          1919
        Tax Verification not Performed                               TV
        Failure to Disclose Refinanced Debt                           RD
        Loan Previously Denied by SBA                                LPD
        Multiple Loans to One Borrower                                ML
        Ineligible Business Type                                     IBT
                                                                      Appendix B


           Community Express Loans Reviewed to Determine Whether Lenders Provided
                                Technical Assistance

                           Servicing    Disbursed     Guarantee     Purchase Amount
Sample #       Loan#
                            Center       Amount        Amount     (Principal & Interest)
   1           Ex.   2    Little Rock    $ 6,000       $ 5,100           $ 4,696
   2           Ex.   2    Little Rock   $ 149,516     $127,089          $127,089
   3           Ex.   2    Little Rock   $ 50,000      $ 42,500          $ 42,500
   4           Ex.   2      Fresno      $ 100,000     $ 85,000          $ 84,567
   5           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 3,956
   6           Ex.   2      Fresno      $ 14,994      $ 12,745          $ 12,750
   7           Ex.   2    Little Rock   $ 10,000       $ 8,500           $ 8,174
   8           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,175
   9           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 3,811
  10           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,586
  11           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,899
  12           Ex.   2    Little Rock   $ 116,000     $ 87,000          $ 85,923
  13           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 4,117
  14           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,909
  15           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 3,828
  16           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 3,991
  17           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,143
  18           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,053
  19           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,921
  20           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,079
  21           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,871
  22           Ex.   2    Little Rock   $ 85,000      $ 72,250          $ 67,195
  23           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,163
  24           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,070
  25           Ex.   2      Fresno      $ 10,000       $ 8,500           $ 7,818
  26           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,136
  27           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,250
  28           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,220
  29           Ex.   2    Little Rock   $ 36,600      $ 29,280          $ 28,562
  30           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,808
  31           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 3,986
  32           Ex.   2    Little Rock   $ 50,000      $ 40,000          $ 37,978
  33           Ex.   2    Little Rock    $ 6,000       $ 5,100           $ 4,920
  34           Ex.   2    Little Rock   $ 150,000     $127,500          $127,397
  35           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 4,120
  36           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,171
  37           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 4,186
  38           Ex.   2    Little Rock    $ 6,000       $ 5,100           $ 4,725
  39           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 3,931
  40           Ex.   2    Little Rock    $ 5,000       $ 4,250           $ 4,047
  41           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,673
  42           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,667
  43           Ex.   2      Fresno       $ 5,000       $ 4,250           $ 3,898
                                                             Appendix C



                        Audit Report Distribution


Recipient                                            Number of Copies


Acting Associate Administrator for Financial Assistance…………………………1

Associate Deputy Administrator for Capital Access………………………………1

Associate Administrator for Field Operations……………………………………..1

Financial Administrative Staff……………………………………………………..1
       Attention: Jeff Brown

General Counsel……………………………………………………………………3

General Accounting Office…………………………………………………………1
                                                                                    Appendix D

                              U.S. SMALL BUSINESS ADMINISTRATION
                                        WASHINGTON, D.C. 20416



   DATE:         December 4, 2006
     TO:         Debra S. Ritt, Assistant Inspector General for Auditing
  FROM:          Janet A. Tasker, Acting Associate Administrator for Financial Assistance
SUBJECT:	        Draft Audit of the SBAExpress and Community Express Loan Purchase
                 and Liquidation Process

  Thank you for the opportunity to respond to the subject report. Overall, we agree we can
  make some changes to the express process for liquidations and purchases that will
  strengthen internal controls. However, OFA believes that significant conclusions in the
  audit are based on an incomplete understanding of the requirements of the programs.
  First, the standard for verifying use of proceeds for working capital loans is described in
  SOP 50 51 and does not require the lender to document the use of proceeds due to the
  fluid nature of working capital loans. Second, while OFA believes the technical
  assistance component of Community Express loans is a key factor in this program, the
  fact that the technical assistance was not specifically verified does not translate into the
  conclusion that no technical assistance was provided. In fact, as noted in the audit report,
  each borrower was evaluated by a T/A provider and a T/A action plan was developed for
  the borrower, both of which constitute the provision of T/A. It appears that clear actions
  were taken by lenders to ensure that technical assistance was provided in good faith. OIG
  should note that borrowers are not required to take the technical assistance,
  however, OFA wants lenders to make a good faith effort to ensure the borrower follows
  up and receives the T/A.

  Please see our responses below to the specific recommendations to your draft audit
  report. We appreciate the opportunity to comment. Please let us know if OIG has any
  questions or wishes to discuss OFAs response to the draft audit report.

     1.	 Determine if loan proceeds on the 45 loans sampled during our audit were
         used in accordance with the terms of the loan authorizations, and take
         appropriate corrective actions against lenders that are not able to
         substantiate an appropriate use of proceeds.

  Response: OFA concurs with this recommendation within the parameters described
  below.

  Reflecting the special nature and philosophy of the SBAExpress loan program,
  particularly the level of authority and autonomy delegated to lenders participating in the
  program, the requirements for lender verification of the use of loan proceeds are not as
  strictly defined and rigorous as those for regular 7(a) loans. In this regard, it is noted that
  for regular 7(a) loans, lenders are not required to document the disbursement of loan
  proceeds for working capital through the issuance of joint payee checks or a substitute
  method (SOP 50-51 2B, chapter 13, paragraph 22). The nature of the SBAExpress
                                                                               Appendix D


program is such that most loans are for the purpose of providing working capital. As a
recent example, of 50,203 SBAExpress and Community Express loans processed in fiscal
year 2006 through E-Tran, 44,972 loans (just under 90%) had working capital designated
for all or a portion of the use of proceeds. While we attempted to ascertain the use of
proceeds for the actual sample of loans used by the OIG, none of the loans were
processed in E-Tran. (We believe this is due to the fact that the time frame for the audit
is before E-Trans was extensively used for SBAExpress loan applications as it is today.)
We also attempted to review the actual loan files to ascertain use of proceeds. However,
in all but two cases, OIG still holds the files. In the two files we were able to review, the
use of proceeds was working capital.

The SBAExpress program guide (10/1/02) states that lenders must use reasonable
methods to ensure that loan proceeds are used for business-related purposes verification
procedures at least as thorough as those used for their non-SBA loans. Also, lenders
must communicate to borrowers that SBA loan proceeds can only be used for business
purposes. Lenders must include this requirement in the loan authorization and must
obtain a certification from the borrower that loan proceeds will be used for business
purposes (in SBA Form 1919 the borrower certifies that, “I agree that all SBA loan
proceeds will be used only for business related purposes as specified in the loan
application…”).

Consequently, within 90 days once the files are returned from OIG, we will re-examine
the 45 loans sampled during your audit to determine if:

   •	 There is a lender certification that it verified loan proceeds were used for business
      purposes following internal procedures used on its non-SBA loans.
   •	 There is a loan authorization requirement that loan proceeds will be used for
      business purposes.
   •	 There is a borrower certification with regard to the use of loan proceeds for
      business purposes (Form 1919 or equivalent).

Appropriate corrective action will be initiated for those lenders who can not substantiate
use of proceeds.

   2.	 Determine if lender actions warrant a denial of liability on $14,232 in
       guarantees associated with the two loans that were either missing a Form
       1919 or where the form was incomplete; and $9,015 on guarantees on
       another two loans that were missing IRS tax verifications.

Response: OFA concurs with this recommendation.

The requirement for lender submission of Form 1919 in order for SBA to process a
purchase was clarified in instructions sent to the centers in January 2006. Within 90 days
of the return of the loan files from OIG, OFA will review the two loans with purchase
amounts of $9,252 and $4,980 that had missing or incomplete 1919 forms to determine
whether the lender can supply the missing form in one of the cases and the borrower’s
                                                                                 Appendix D


citizenship information in the other. If appropriate documentation cannot be supplied, a
determination will then be made with respect to the recovery of the guaranty purchase
amounts disbursed.

   3.	 Recover $7,414 from the lender that awarded an SBA loan to an ineligible
       company.

Response: OFA cannot concur or non-concur with this recommendation without further
information.

Within 90 days after the loan file is returned by OIG, OFA will review the loan file to
determine the essential nature of the borrower’s business since a check cashing operation,
although dealing exclusively with cash and near cash inventory, can be deemed eligible
because the business uses the cash to provide a service (cashing checks for a fee). See
SOP 50-10 (4)(B), Subpart A, paragraph 8b(2)(d). If after further review, OFA
determines that the loan was ineligible, we will take action to recover the amount
indicated.

   4.	 Revise the purchase demand kit and review checklists to require that lenders
       provide SBA staff with use of proceeds documentation, complete SBA Form
       1919s, IRS tax verifications, and any other documentation needed to
       determine lender compliance with applicable requirements.

Response: OFA concurs with the recommendation to revise the purchase demand kit
consistent with current guidance, as indicated below.

Within 90 days of the issuance of this report, OFA will review the purchase demand kit
to ensure that it contains the three criteria for certification of the use of loan proceeds for
business purposes as set forth in the first response above. We will also ensure that the kit
makes explicit that a completed SBA Form 1919 is a prerequisite for purchase
processing. The kit will further make clear that IRS tax transcript verification
documentation is required for purchase processing on early default loans unless the
lender used credit scoring that did not rely on business revenues or profits in the scoring
process. In addition, if loan proceeds were used for refinancing, the lender will be
required to submit its analysis and justification for the refinancing. Other revisions to the
kit may be subsequently made based upon our review of the OIG purchases selected for
audit.

   5.	 Review the 2,729 loans for compliance with SBA rules and regulations and
       improper payments.

Response: OFA does not concur with this recommendation.

The OIG’s conclusion in this regard appears to be largely based on the fact that use of
proceeds were not verified. However, since the vast majority of SBAExpress loans are
made for working capital purposes and, the SOP does not require traditional verification
                                                                             Appendix D


procedures for working capital loans, we do not believe that improper payments have
been made requiring such a comprehensive review. Consequently, we do not believe that
it would be an efficient or cost-effective use of SBA resources to review for a second
time all 2,729 purchases that were included in the OIG sample. This is particularly true
with respect to the large number of purchase disbursements that were under $10,000
which are subject to expedited reviews under current procedures (SOP 50-51 2B, chapter
13, paragraph 17). However, if significant issues are identified in our analysis of the 45
purchases selected for review by OIG, then we will make a determination with regard to
the identification of additional purchases for a second review based on risk and SBA
exposure (such as all early defaults with purchase disbursements over $50,000).

   6.	 Recover $27,134 for the two purchased SBAExpress loans reviewed for
       which the lender failed to disclose material facts.

Response: OFA concurs preliminarily with this recommendation subject to further
review.

Within 90 days after the loan files are returned by OIG, OFA will review the loan files
for these two purchases and make a decision with respect to recovery of the purchase
proceeds disbursed. Based on the summary contained in the OIG draft audit, however, it
appears that recovery of the amounts in question is warranted.

   7.	 Require the Fresno and Little Rock Commercial Loan Servicing Centers
       ensure lenders have provided technical assistance before purchasing
       guarantees above 50 percent.

Response: OFA partially concurs with this recommendation.

OFA does not agree with OIG's finding that technical assistance (T/A) was not provided
on the 43 cited loans simply because adequate documentation substantiating the T/A was
not provided during the purchase review process. Additionally, as the OIG notes, each
borrower was evaluated by a T/A provider and a T/A action plan was developed for the
borrower, both of which constitute the provision of T/A. OIG should note that borrowers
are not required to take the technical assistance, however, OFA wants lenders to make a
good faith effort to ensure the borrower follows up and receives the T/A.

However, OFA does agree that the Agency should publish enhanced guidance for lenders
(1) to more clearly specify what SBA expects in the way of T/A from each lender under
the program; and (2) to set forth SBA's minimum required documentation to substantiate
the provision of T/A that will be required at the time of purchase. In this regard, OFA
currently has in clearance procedural guidance (which OIG has cleared) addressing these
two important program clarifications. Additionally, once that notice is published, we will
revise our purchase process in Fresno and Little Rock to require the centers to obtain
additional documentation substantiating the provision of the required T/A by Community
Express lenders. This documentation will be a prerequisite to process the purchase of
                                                                               Appendix D


any Community Express loan at an 85% guaranty level. OFA believes that publication of
this notice will address this recommendation.

   8.	 Obtain evidence from lenders that technical assistance was provided to
       borrowers on the 43 Community Express loans reviewed. If no evidence is
       provided, seek recovery of those portions of SBA guarantees that exceeded
       the 50-percent level.

Response: OFA does not concur with this recommendation.

As noted above, the OIG has substantiated that the lenders ensured management
assessments and T/A action plans were developed for the loans in question. Since this
forms the basis for concluding that substantive T/A was provided, OFA has no basis to
recover any guaranty purchase amounts for these loans under existing program
guidance. OIG should note that borrowers are not required to take the technical
assistance, however, OFA wants lenders to make a good faith effort to ensure the
borrower follows up and receives the T/A. However, as noted above, OFA is in the
process of publishing enhanced guidance on Community Express that will better define
the Agency's expectations regarding the provision of T/A and its substantiation by the
lender.

   9.	 Direct the Fresno Commercial Loan Service Center to rescind its September
       11, 2003 guidance and inform lenders that proof of technical assistance is a
       program requirement.

Response: OFA partially concurs with this recommendation.

As noted above, OFA agrees with the need for publication of enhanced program guidance
on Community Express T/A requirements. Accordingly, once this is done Fresno and
Little Rock will require more complete substantiation of the provision of appropriate T/A
by Community Express lenders for all purchases. In the meantime, Fresno will be
immediately requested to rescind its September 11, 2003 guidance. The revised purchase
checklist discussed in recommendation four will be require Community Express lenders
to certify that they attempted to provide T/A in connection with each loan submitted for
purchase and briefly describe how this was done.

   10. Refer to the U.S Department of Treasury the $15.1 million in loans that are
       more than 180 days delinquent and are not in bona fide workout
       arrangements.

Response: OFA does not concur with this recommendation.

Until lenders have finished their recovery actions and SBA has completed its review of
such actions and charged off the loan, the account is not eligible to be sent to Treasury for
servicing. Your recommendation would be appropriate, but only for delinquent SBA
                                                                               Appendix D


serviced accounts that are not in litigation or foreclosure. Treasury addresses lender
serviced loans in its regulations at 13 CFR Part 285.12 (d)(6) as follows:

“…debts being serviced and/or collected in accordance with applicable statutes and/or
regulations by third parties, such as private lenders or guaranty agencies are exempt…”

In the preamble to the Treasury regulations, this issue was discussed:

“Paragraph 285.12(d)(6) was added to the final rule to provide additional guidance on
debts being collected by third parties. Several agencies, in accordance with statutory or
contractual requirements, have debts more than 180 days past due that are being collected
by third parties such as private lenders or guaranty agencies. In accordance with … the
provisions of this rule, the Secretary has determined that it is in the best interest of the
Government that debts being collected by third parties be exempt … because the transfer
of such debts would interfere with the program goals and requirements of the subject
debts. Debts more than 180 days past due must be transferred to FMS for collection …
upon their return to a creditor agency by a third party.”

Accordingly, as indicated above, SBA will transfer its loans to Treasury for
administrative offset and other collection actions following completion of the lender’s
recovery efforts and charge-off of the account by SBA.

However, as part of the President’s Management Agenda, SBA is conducting a review of
its liquidation and purchase activities from the perspective of the Debt Collection Act and
related regulations and guidance. OFA believes its practices are fully consistent with
Treasury guidance, however, changes in practices may result from this internal
assessment.

   11. Ensure that adequate emphasis is placed on liquidation follow-up and that
       controls are in place to refer eligible debts to the Department of Treasury
       within 180 days of delinquency as required by the Debt Collection Act.

Response: OFA partially concurs with this recommendation.

See response to Recommendation 10 above with on referrals to Treasury. With regard to
liquidation follow-up, as indicated below, the centers are exploring ways to redirect or
supplement existing staff resources for this function. For Express loans submitted for
purchase under the regular purchase process (not the expedited process) adequate
emphasis is now placed on charging off the loan within a very short time period after
purchase. The automated process for referral to Treasury is initiated shortly after the
charge off is effected. OFA believes this recommendation has been implemented.

   12. Require the Fresno and Little Rock Commercial Loan Servicing Centers to
       obtain updated status reports from lenders on loans currently in liquidation
       status and charge loans off as appropriate.
                                                                             Appendix D


Response: OFA concurs with this recommendation.

The servicing centers are exploring ways to redirect or supplement existing staff
resources to review purchased loans in liquidation status and obtain lender information as
necessary for liquidation oversight and charge-off when appropriate. Within 180 days of
the issuance of this report, OFA will have made appropriate organizational changes to
address this recommendation.
